Board of Governors of the Federal Reserve System




        Audit of the Board’s
   Transportation Subsidy Program




       Office of Inspector General



                                          March 2011
                                                March 31, 2011


Mr. Donald Spicer
Acting Director, Management Division
Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Mr. Spicer:

      The Office of Inspector General of the Board of Governors of the Federal Reserve System
(Board) is pleased to present its report on the Audit of the Board’s Transportation Subsidy
Program. The Board supports federal government initiatives to conserve energy, reduce traffic
congestion, and improve air quality by providing transportation subsidy benefits to employees
who commute to work using public transportation. 1 We conducted this audit in response to
reports of abuse and fraud in the federal transit benefits program at other government agencies.

      Our audit objective was to determine the extent to which the Board’s Transportation
Subsidy Program (TSP) is properly controlled and administered. More specifically, we assessed
the extent to which the Board’s program controls (1) ensure compliance with applicable laws and
regulations and management’s authorization, and (2) prevent unauthorized or fraudulent
activities. In an Interim Audit Memorandum dated December 23, 2008, we provided the then
Director of the Management Division with our preliminary observations regarding the TSP (see
appendix 1). We noted specifically that the Board’s Transportation Subsidy policy (1) was
outdated and incomplete, (2) did not include provisions for employee recertification or
withdrawal from TSP, and (3) did not include two control provisions recommended by the Office
of Management and Budget.

      Now that we have concluded our audit, we have found that the Board’s TSP is reasonably
controlled and administered to help ensure compliance with applicable laws and regulations and
management’s authorization, and to help prevent unauthorized or fraudulent activities. We
determined that most of the observations in our Interim Audit Memorandum have been
addressed through changes included in a draft revised Transportation Subsidy policy. The draft
revised policy has not been finalized and issued.

     Our audit did not identify significant deficiencies; however, we did identify cases of
noncompliance with policies and procedures and opportunities to strengthen controls intended to

        1
           According to the Board’s Transportation Subsidy policy, effective March 30, 2007, public transportation
is any transportation system registered with the Washington Metropolitan Area Transit Authority (WMATA),
including van pools and other privately owned and operated transportation systems registered with WMATA.
Mr. Donald Spicer                               2                              March 31, 2011

ensure participants’ compliance with TSP requirements. Our report contains three
recommendations designed to address these matters.

     We provided our draft report to you for review and comment. In your response, included
as appendix 2, you concur with recommendations 1 and 3, concur with the intent of
recommendation 2, and discuss improvement actions planned or underway. We will follow up
on the implementation of each recommendation as part of our future audit activities.

      We appreciate the cooperation that we received from the Management Division staff during
our review. The principal contributors to this report are listed in appendix 3. We are providing
copies of this report to Board management officials. The report will be added to our public web
site and will be summarized in our next semiannual report to Congress. Please contact me if you
would like to discuss this report or any related issues.

                                           Sincerely,



                                     Andrew Patchan, Jr.
                    Associate Inspector General for Audits and Attestations

Enclosure

cc:   Governor Sarah Bloom Raskin
      Mr. William Mitchell
      Mr. Michell Clark
Board of Governors of the Federal Reserve System




        Audit of the Board’s
   Transportation Subsidy Program




OFFICE OF INSPECTOR GENERAL




                                           March 2011
                                                            Table of Contents
                                                                                                                             Page

Background ........................................................................................................................7

Objective, Scope, and Methodology ................................................................................9

Findings, Conclusions, and Recommendations .............................................................10

Analysis of Comments .....................................................................................................15

Appendixes........................................................................................................................17

        Appendix 1 – Interim Audit Memorandum ..............................................................19

        Appendix 2 – Acting Division Director’s Comments .............................................23

        Appendix 3 – Principal Contributors to this Report .................................................29




                                                                      5
Background
The Board of Governors of the Federal Reserve System (Board) operates a Transportation
Subsidy Program (TSP) in support of federal government initiatives to conserve energy, reduce
traffic congestion, and improve air quality by encouraging federal employees to commute to
work using public transportation. Under the TSP, the Board provides nontaxable transportation
subsidy benefits to eligible employees for commuting to work using public transportation. As of
December 31, 2010, approximately 1,100 Board employees participated in the TSP, and 2010
Board expenditures for providing TSP benefits totaled about $1.5 million. Over the last four
years, the maximum monthly TSP benefit amount for eligible employees increased from $110 to
$230. 2

In 2007, the Government Accountability Office (GAO) issued a report on ineffective controls
over the federal transit benefits program at certain federal agencies. GAO found a lack of
government-wide policies and control guidelines and identified that weaknesses existed in the
design of program controls at certain agencies, which could contribute to fraudulent and abusive
activity. GAO confirmed that approximately 20 federal employees were fraudulently selling
their Metrocheks (unregistered fare cards provided as transit benefits), 23 employees inflated
their transportation expenses on their transit benefit applications, and 2 employees received both
parking and transit benefits. In addition, GAO identified four federal employees who continued
to receive transit benefits while on extended absences and four former employees who continued
to receive benefits after leaving their respective agencies. Subsequently in 2007, the Office of
Management and Budget (OMB) issued Memorandum 07-15, Federal Transit Benefits Program,
which identified internal controls to improve agencies’ administration of federal transit benefits.
We conducted our audit in response to the reports of abuse and fraud in the federal transit
benefits program at other government agencies.

In September 2007, the Board began migrating from distributing transportation subsidy benefits
through Metrocheks to distributing benefits through the SmartBenefits program. The
Washington Metropolitan Area Transit Authority (WMATA) administers the SmartBenefits
program, which provides electronic benefits through SmarTrip cards and SmartBenefits vouchers
for employers to distribute to their employees. A SmarTrip card is a plastic, reusable fare card
that operates like a debit card and has an embedded computer chip that stores and tracks the
value downloaded to it at kiosks located within the WMATA system. A SmartBenefits voucher
is a fare card for participants to use on regional transit systems that have not adopted the
SmarTrip card payment system, such as Virginia Railway Express, Maryland Area Regional
Commuter Rail, and the Maryland Transit Administration commuter buses. The SmarTrip card
enhances and provides several program controls by

        •   registering the SmarTrip card to the owner;
        •   storing a maximum of $300 on any one card; and


        2
          With the enactment of the American Recovery and Reinvestment Act of 2009 and the Tax Relief,
Unemployment Insurance Reauthorization, and Job Creation Act of 2010, the allowable transportation subsidy
benefit was temporarily increased to $230 per month through December 31, 2011.

                                                       7
       •   enabling WMATA to deactivate a registered SmarTrip card if it is lost or stolen, and
           to transfer its remaining balance to a replacement card.

At the start of the transition to SmartBenefits in late 2007, the Board required participants to
revalidate their TSP eligibility by submitting a new Application for Transportation Subsidy. For
SmarTrip card users, the Board also required participants to complete a SmartBenefits Program
Application. In April 2009, when the Board discontinued the distribution of Metrocheks, it
required SmartBenefits voucher users to submit a DC Transit Benefits application to receive
SmartBenefits vouchers. During February 2010, the Board initiated a compliance effort to
revalidate all participants in the TSP. All participants were required to reapply to the TSP to
continue receiving benefits.
Until recently, the Board had a written agreement with the Department of Transportation (DOT)
to process Board-approved TSP applications; maintain a database of information on Board TSP
participants and their TSP benefits based on the information provided by the Board; and
distribute TSP benefits to Board participants. The agreement detailed DOT’s responsibilities to
(1) act as the liaison between the Board and WMATA to activate electronic benefits for
participants to download to their SmarTrip cards; (2) order and safeguard SmartBenefits
vouchers; and (3) provide agents to disburse the vouchers to Board TSP participants on an
agreed-upon schedule. As part of the agreement, DOT provided the Board with monthly TSP
participant account activity reports and a monthly invoice statement for Board TSP participant
benefits disbursed and the related DOT administrative fees. However, since October 2010, the
Board no longer uses DOT as its intermediary processor and processes TSP benefits directly
through WMATA.

The Board’s current Transportation Subsidy policy, dated March 30, 2007, establishes criteria
for benefits, eligibility, and employee responsibilities. The policy notes that employees
receiving transportation subsidy benefits are responsible for providing complete, up-to-date, and
certified application information, such as information on commuting costs and participation in
the Board’s parking program. Employees are also responsible for complying with the policy
requirements on receiving and using subsidy benefits, as well as refunding ineligible subsidy
benefits. In addition, under the policy, the Accounting Section in the Board’s Financial Services
Function of the Management Division has program responsibility for administering the TSP.

The Accounting Section has designated a TSP administrator to perform day-to-day operations,
which include (1) communicating information to Board staff about the program benefits and
distribution processes; (2) administering employees’ participation in the TSP, such as receiving,
reviewing, approving, and maintaining applications; (3) coordinating and administering benefits
distribution, such as establishing distribution dates and locations; and (4) reconciling monthly
distribution reports and invoices to the Board’s records. In addition, the TSP administrator
monitors the participants’ compliance with policy requirements, such as performing periodic
reviews to ensure that participants’ commuting costs are current and valid, participants do not
have a parking permit while also receiving TSP benefits, participants are not utilizing 10 or more
days of contingency parking in any given month while also receiving TSP benefits, and
participants who have separated from the Board are no longer receiving TSP benefits.



                                                8
Objective, Scope, and Methodology
The overall objective of this audit was to determine the extent to which the Board’s TSP is
properly controlled and administered. More specifically, we assessed the extent to which the
Board’s program controls (1) ensure compliance with applicable laws and regulations and
management’s authorization, and (2) prevent unauthorized or fraudulent activities. To
accomplish our objective, we reviewed the Board’s Transportation Subsidy policy, the
Accounting Section’s Transportation Subsidy Program procedures, and other relevant
documentation to gain detailed knowledge of the Board’s TSP and assess its control processes.
We interviewed Board staff responsible for managing the Board’s TSP to obtain information on
program operations and controls. We also met with the Board staff responsible for managing the
Board’s Parking Program to obtain relevant information. Based on our understanding of the
Board’s TSP, we developed detailed program flowcharts and narratives to identify the program’s
processes and procedures, assess the program’s controls, and assist with our fieldwork testing.

We tested the adequacy of the controls within the program’s application, monitoring, and
accounting processes to ensure compliance with the Transportation Subsidy policy and the
Accounting Section’s Transportation Subsidy Program procedures. We performed testing to
review whether controls ensure that (1) former Board employees who participated in the program
do not continue to receive TSP benefits after separating from the Board, (2) TSP benefits are
based on accurate commuting cost information, (3) TSP participants do not have a parking
permit while also receiving TSP benefits, and (4) TSP participants do not utilize 10 or more days
of contingency parking in a given month while also receiving TSP benefits. In addition, we
sampled participants’ applications to determine if they were properly reviewed, approved, and
recorded in the Board’s TSP database. We also sampled monthly reconciliations performed by
the Accounting Section, which validated TSP benefits distributed by DOT, to ensure that the
reconciliations were properly supported and independently reviewed and approved. We
performed our testing in 2009, and updated our testing in March and November 2010.

In performing our testing, we analyzed the Board’s TSP and personnel databases for the period
of November 1, 2009, through December 31, 2009, to identify any TSP participants who
separated from the Board but were still identified as “active” in the Board’s TSP database and
authorized to receive TSP benefits. We also compared 85 TSP participants’ addresses in the TSP
database with the Board’s personnel database as of December 2009, to identify any
discrepancies. As part of our updated testing, we compared the Board’s TSP and Parking
Program databases for the months of June 2010 and July 2010, to identify any TSP participants
who had a parking permit or utilized 10 or more days of contingency parking while also
receiving TSP benefits in the same month. For any discrepancies noted, we determined if the
Accounting Section’s commuting cost or parking reviews identified the same discrepancies, and
we analyzed available information to estimate the impact on TSP benefits.

We began our audit in August 2008, and in December 2008 we issued an Interim Audit
Memorandum that provided the Board with our preliminary observations regarding the
program’s policy and procedures. We subsequently continued our work and completed the audit
fieldwork in November 2010. We performed our work in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to

                                               9
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions, based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions, based on our audit objective.

Findings, Conclusions, and Recommendations
Overall, we found that the Board’s TSP is reasonably controlled and administered to help
(1) ensure compliance with applicable laws and regulations and management’s authorization, and
(2) prevent unauthorized or fraudulent activities. Our audit did not identify significant
deficiencies; however, we did identify cases of noncompliance with policies and procedures and
opportunities to strengthen controls intended to ensure participants’ compliance with TSP
requirements. In our December 2008 Interim Audit Memorandum that reported our preliminary
observations on the Board’s TSP, we identified that the Transportation Subsidy policy was
outdated and incomplete, did not include provisions for employee recertification of eligibility or
withdrawal from the TSP, and did not include two internal control provisions recommended in
OMB Memorandum 07-15. In addition, we identified that certain TSP processes were not fully
documented in the Accounting Section’s written Transportation Subsidy Program procedures.
We also provided observations regarding clarifications needed on the Board’s TSP web page and
the 2008 partnership agreement with DOT, which the Board has since resolved. In addition, the
Board drafted a revised Transportation Subsidy policy and revised the Transportation Subsidy
Program procedures.

While the draft revised Transportation Subsidy policy addresses most of our December 2008
preliminary observations, the policy has not been finalized and issued. Since the TSP involves
fund disbursements, it is inherently susceptible to fraud and abuse. In our testing and analysis,
we identified weaknesses involving TSP participants (1) continuing to receive benefits after
separating from the Board, (2) not providing the Accounting Section with up-to-date address and
commuting cost information, and (3) having a parking permit while also receiving TSP benefits.
Based on the foregoing, we are making three recommendations designed to help the Board
enhance its system of internal controls over the TSP and minimize the potential for fraud and
abuse.

1. We recommend that the Acting Director of the Management Division finalize and issue
   the draft revised Transportation Subsidy policy, which includes control enhancements.

In our Interim Audit Memorandum, we identified that the Board’s current Transportation
Subsidy policy, dated March 30, 2007, (1) was outdated and incomplete, (2) did not include
requirements for employee recertification of eligibility or withdrawal from the TSP, and (3) did
not include two internal control provisions recommended in OMB Memorandum 07-15
regarding benefits being adjusted due to travel and leave, and exit procedures addressing the
removal of separating employees from the program. Subsequent to our Interim Audit
Memorandum, the Board drafted a revised Transportation Subsidy policy that addressed most of
our preliminary observations. This policy has not been finalized and issued.

The draft revised policy provides updated and complete program information and reflects the
Board’s current method of providing TSP benefits through the use of WMATA’s SmartBenefits

                                               10
program. The draft policy also states that the Management Division will make an annual
announcement regarding the subsidy amount and that employees will be required to annually
revalidate their TSP applications and continuing eligibility. The draft policy also includes the
OMB control provision for reducing benefits based on lower commuting costs during periods
when employees are out of the office on travel or leave. The draft policy specifies that
employees must ensure that they are receiving TSP benefits only for days on which they incur
commuting costs, and they must adjust the following month’s subsidy for days when they did not
report to their work location (such as for official travel, leave, flex days, or telecommuting).
Regarding the other OMB control provision about removing separating employees from the TSP,
the draft policy states that employees separating from the Board must notify the Accounting
Section of their withdrawal from the program.

2. We recommend that the Acting Director of the Management Division update the
   Employee Separation Form and the Board’s exit process to ensure that employees
   separating from the Board are also removed from the TSP.

Although the draft revised Transportation Subsidy policy states that a TSP participant is required
to notify the Accounting Section when leaving the Board, a control provision in OMB
Memorandum 07-15 recommends that an agency’s exit process for separating employees
includes the employees’ removal from the TSP. The Board’s Employee Separation Form and
exit process provide overall controls to help ensure that separating employees do not continue to
receive Board employee benefits or retain work-related equipment, but they do not specifically
address removing separating employees from the TSP.

When an employee separates from the Board, he or she is required to complete the Board’s
Employee Separation Form, which requires that the employee (1) be removed from Board
programs, (2) surrender all Board-provided material and equipment, (3) make arrangements for
any financial obligations to the Board, and (4) be aware of his or her ongoing benefits available
upon separation from the Board. The separating employee and authorized Board officials are
required to sign various parts of the form to ensure that the associated steps in the exit process
are completed. However, neither the form nor the exit process specifically addresses removing
separating employees from the TSP. Accounting Section officials stated that they review the
personnel database to identify TSP participants who are separating or have separated from the
Board and then terminate their TSP benefits. However, as discussed under recommendation 3
below, we found weaknesses in the controls intended to ensure that separated employees are
precluded from receiving further TSP benefits, which supports our position that internal controls
could be enhanced by modifying the form and exit procedures to specifically address removing
separating employees from the TSP.

3. We recommend that the Acting Director of the Management Division improve the
   Board’s processes and written procedures to ensure that TSP participants (i) are
   removed from the program in a timely manner when they separate from the Board, so
   they do not continue to receive benefits, (ii) provide the Accounting Section with up-to-
   date address and commuting cost information, and (iii) do not also have a parking
   permit.



                                                11
The Accounting Section’s Transportation Subsidy Program procedures, dated June 6, 2008,
provide information on the Board’s TSP and how to administer participants’ applications,
monitor participants’ compliance with TSP requirements, and perform monthly reconciliations
with distribution reports. In our Interim Audit Memorandum, we identified that certain TSP
processes were not fully documented in the Transportation Subsidy Program procedures.
Further, our testing of the processes identified weaknesses in ensuring that employees who have
separated from the Board do not continue to receive benefits, employees provide the Accounting
Section with up-to-date address and commuting cost information, and employees do not have a
parking permit while also receiving TSP benefits.

Termination Reviews

Accounting officials perform weekly termination reviews to remove employees from the TSP
who have separated from the Board. The officials stated that they run queries in the Board’s
personnel employment status database to identify TSP participants who are separating or have
separated from the Board. Accounting staff then change the status of these employees in the
Board’s TSP database from “active” to “terminated,” and make appropriate changes to the
WMATA system. 3 However, we found that the termination reviews did not ensure that TSP
benefits were discontinued for all separated Board employees. Specifically, we analyzed the
Board’s personnel employment status database to identify Board employees who separated
during the period of November 1 through December 31, 2009. We identified 19 employees who
had separated from the Board. Of this 19, 11 had participated in the TSP. We found that
Accounting had only changed the status of 2 of the 11 TSP participants to “terminated”; the other
9 remained listed as “active” in the TSP database, as of January 31, 2010. According to the
distribution report reflecting TSP benefits disbursed for Board participants during January 2010,
three former employees downloaded a collective total of $410 in TSP benefits during January
2010. For the 11 separated TSP participants, the table below summarizes their separation dates,
their status in the Board’s database, and whether they downloaded benefits after separating from
the Board.




        3
          When DOT was providing services, Accounting staff communicated the results to DOT, so DOT could
process the change in the WMATA system to ensure an accurate distribution of TSP benefits. Since October 2010,
the Board no longer uses DOT as its intermediary processor and processes TSP benefits directly through WMATA.


                                                      12
     Overview of Separated TSP Participants

                                                         Board’s                 Downloaded
         Employee               Separation               Database                TSP Benefits
                                   Date                 1/31/2010                January 2010
               1                12/22/2009                Active                     Yes
               2                12/04/2009                Active                     Yes
               3                11/19/2009                Active                     Yes
               4                12/18/2009                Active                      No
               5                12/11/2009                Active                      No
               6                12/04/2009                Active                      No
               7                11/20/2009                Active                      No
               8                12/31/2009                Active                      No
               9                12/11/2009                Active                      No
              10                12/31/2009              Terminated                    No
              11                11/06/2009              Terminated                    No

Accounting Section officials stated that they are aware of inaccuracies in the termination reviews
and are working to ensure that the Accounting Section staff fully understands the procedures to
be performed. In addition, Accounting officials noted that they have initiated collection efforts
to recoup benefits that were improperly downloaded.

Commuting Cost Reviews

Accounting officials also perform monthly commuting cost reviews to ensure commuting costs
are current and valid. A random sample of TSP participant applications is reviewed to ensure
that the approved commuting costs are current and accurate. The Accounting Section stated that
they first compare a participant’s current home address in the Board’s personnel database with
the home address listed on the TSP application. If an address discrepancy is noted, the
Accounting Section will request that the participant provide a new TSP application or update the
Board’s personnel database before performing the commuting cost reviews. Then, based on the
participant’s home address found in the Board’s personnel database, the Accounting Section
uses an automated public trip planning tool to calculate the participant’s commuting cost to
independently validate the commuting cost the participant submitted with his/her TSP
application. If the calculated amount is lower by 10 percent or more of the participant’s current
TSP benefits, the Accounting Section will contact the employee to determine the accurate
commuting cost. 4

We compared 85 TSP participants’ addresses, reviewed by the Accounting Section in December
2009, to the Board’s personnel database. We identified six participants with address
discrepancies that were not identified by the Accounting Section. However, based on our
independent calculations, we determined that all six participants’ commuting costs were within
10 percent of their current TSP benefits. Accounting officials stated that they are aware of
inaccuracies in analyzing addresses within the commuting cost reviews and are working to
        4
          The Accounting Section established the 10 percent threshold due to the uncertainty associated with the
participants’ exact commuting methods and the cost and resources associated with resolving discrepancies.

                                                        13
address the issues by ensuring that the Accounting Section staff fully understands the procedures
to be performed.

Parking Reviews

In addition, Accounting officials perform periodic parking reviews to ensure TSP participants do
not also have a parking permit or utilize 10 or more days of contingency parking in a given
month while also receiving TSP benefits. Regarding the parking permit reviews, Accounting
officials said that, on an annual basis, they compare the parking permit and TSP databases to
identify employees participating in both the TSP and parking permit program. The scope of the
review is data for one month during the year. If employees are identified in both programs,
Accounting staff will compare these employees to the TSP distribution reports to determine if
they have downloaded TSP benefits. Accounting staff will also contact the Parking Program
officials to validate that the employees have parking permits. If validated, Accounting staff will
remove the employees from the TSP and request reimbursement. Accounting officials also noted
that they have advised Parking Program officials to access the TSP database to ensure parking
permit applicants are not TSP participants, as a preventive control. During our testing, we found
that some employees were participating in both programs and had parking permits while also
receiving TSP benefits.

Specifically, we compared the Board’s TSP and parking permit databases to identify employees
listed in both databases. We also compared the TSP distribution reports to the Board’s parking
permit database to identify TSP participants who had a parking permit while also downloading
TSP benefits during June 2010 and/or July 2010. Our testing identified six employees
participating in both the TSP and the parking permit program. Of these six employees, two
actually downloaded TSP benefits in both months. One of these employees revalidated his TSP
application before receiving his parking permit, and the other revalidated his TSP application
after receiving his parking permit.

For the employee who revalidated his application before receiving his parking permit, we
contacted the Parking Program officials and were told that they have access to the TSP database
but do not check it to ensure parking permit applicants are not also receiving TSP benefits.
Going forward, Parking Program officials stated they plan to access the TSP database before
providing employees parking permits. In addition, Accounting officials noted that they will start
performing monthly permit reviews, instead of annual permit reviews, to better detect if
employees are violating the Transportation Subsidy policy. Regarding the employee who
revalidated his TSP application after obtaining a parking permit, we found that this employee
certified on his TSP application that he did not have a parking permit. However, we determined
that Accounting staff detected both employees during their permit reviews. The first employee
was detected in an October 2010 review of permits outstanding as of December 2009. The
second employee was detected in a November 2010 review of permits outstanding as of June
2010.

For the contingency parking reviews, Accounting officials stated that, on a monthly basis, they
compare the Board’s contingency parking databases to the TSP distribution reports to identify
employees who utilized 10 or more days of contingency parking in a given month while also

                                               14
receiving TSP benefits. Accounting staff noted that they contact the Parking Program officials to
validate the employees’ contingency parking information. If information indicating a violation
of policy is validated, Accounting will send an e-mail to the involved employees requesting
reimbursement. During our testing of TSP participants, we compared the contingency parking
database and the TSP distribution reports for the months of June 2010 and July 2010. We
identified 6 TSP participants who received 10 or more days of contingency parking and also
downloaded TSP benefits. However, we confirmed that Accounting staff also identified these
six TSP participants during their monthly contingency parking reviews and had begun collection
efforts to recoup ineligible TSP benefits.

At the time of our review, the above processes followed for termination, commuting cost, and
parking reviews were not fully documented in the Accounting Section’s Transportation Subsidy
Program procedures, which may have contributed to the control weaknesses. We identified, for
example, that the written Transportation Subsidy Program procedures for termination reviews
did not cover (1) running queries to identify TSP participants who are separating or have
separated, (2) changing the separating or separated participants’ status from “active” to
“terminated” in the TSP database, or (3) removing them from the WMATA system. Under the
commuting cost review process, the written Transportation Subsidy Program procedures did not
cover (1) comparing addresses from the applications to the addresses in the Board’s personnel
database to identify any discrepancies; (2) contacting participants to request that they provide a
new TSP application or update the Board’s personnel database, if discrepancies exist; and (3)
calculating the participants’ estimated monthly commuting cost using their addresses found in
the Board’s personnel database. With regard to the parking reviews, the written Transportation
Subsidy Program procedures did not cover (1) performing the permit reviews for a specific
month (specific points in time), (2) comparing the employees identified by comparing the
parking permit and TSP databases against reports on TSP benefits disbursed, and (3) contacting
the Parking Program to confirm that an employee has a parking permit.

Analysis of Comments
We provided a copy of this report to the Acting Director of the Management Division for review
and comment. In his response, included as Appendix 2 to this report, the Acting Director
concurs with recommendations 1 and 3, concurs with the intent of recommendation 2, and
discusses improvement actions planned or underway. 5 Specifically, with respect to
recommendation 1, the Acting Director plans to finalize and issue the draft revised
Transportation Subsidy policy.

With respect to recommendation 2, the Acting Director notes that the division recently began a
review of the separation process, and he will consider this recommendation as he implements an
automated workflow routing of the separation form. However, he believes that fully
implementing other controls, related to recommendation 3, will better ensure that employees
separating from the Board are removed from the TSP. The Acting Director also notes plans to
incorporate TSP requirements into the planned rewrite of the Board’s parking program, which

        5
          The Acting Director’s response, dated March 29, 2011, includes as an attachment a September 15, 2010,
response to an earlier OIG draft report.

                                                      15
will more fully automate the process of removing departing employees from the TSP database.
Although we recognize that fully implementing current controls (and automating certain
processes) will help ensure separating participants are removed from the program, we believe
that the exit process, including the exit form, serves as an important additional control to provide
assurance that certain benefits are discontinued for separating employees.

With respect to recommendation 3, the Acting Director notes that the division has eliminated
DOT as the intermediary processor and now works directly with WMATA, which has
streamlined the program and eliminated time lags between notification of an employee’s removal
from the program and action on that notification. In addition, Accounting staff will perform a
monthly reconciliation between the Board’s personnel database and the TSP database to identify
address discrepancies. The Acting Director also notes that implementing an annual revalidation
process will help ensure that information in their database remains up-to-date. To ensure
employees do not receive both parking and transportation subsidy benefits, Accounting staff will
review the parking database records prior to approving new subsidy applications and Law
Enforcement staff will review the transportation subsidy records prior to approving new
permanent parking passes. While the Acting Director has identified actions to improve TSP
processes, we believe that related written procedures also should be improved.




                                                 16
APPENDIXES
Appendix 1 – Interim Audit Memorandum
              BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM




DATE:         December 23, 2008

TO:           H. Fay Peters, Director, Management Division

FROM:         Andrew Patchan Jr., Assistant Inspector General for Audits and
              Attestations/signed/

SUBJECT:      Preliminary Observations on the Audit of the Board’s Transportation Subsidy
              Program

       As indicated in our announcement letter, dated August 4, 2008, the Office of Inspector
General has been conducting an audit of the Board’s Transportation Subsidy Program (TSP).
The audit objective is to determine the extent to which the TSP is properly controlled and
administered. More specifically, we are assessing the extent to which the TSP controls (1)
ensure compliance with applicable laws and regulations and management’s authorization, and (2)
prevent unauthorized or fraudulent activities. During our ongoing audit, we are reviewing the
current TSP policy and procedures, TRANServe agreement, and related-documentation; and
interviewing various Management (MGT) and Legal division staff. We are also meeting with
the Chief Financial Officer, the Accounting Manager who oversees the TSP, and the Accounting
Supervisor who is the TSP Administrator, to provide updates on our audit work and any
observations.

        We were recently advised that the Board is planning to issue a revised TSP policy early
in 2009. While our audit is still ongoing, we would like to provide you with our preliminary
observations regarding the TSP. Once our fieldwork is complete, we will issue a draft audit
report on our conclusions on the overall effectiveness of controls within the TSP, for your
comments.

TSP Policy. The current policy is outdated, incomplete, and does not include two of the nine
recommended Office of Management and Budget (OMB) control provisions.

   - The Board currently provides a transit subsidy for metro bus, metro rail, and van pool
     through Washington Metropolitan Area Transit Authority’s (WMATA’s) Metrochek and
     SmartBenefits processes. The current policy addresses the transit subsidy received
     through Metrocheks only, and does not address the transit subsidy received through
     SmartBenefits.




                                               19
Appendix 1 (continued)

   -   The current policy also includes information on Board-sponsored van pools, including
       reimbursements through electronic funds transfers. The Board, however, discontinued its
       sponsored van pool program in August 2007.

   -   The current policy references the 2007 IRS fringe benefit maximum amount ($110.00),
       instead of the 2008 amount ($115.00).

   -   The policy does not include the following transit benefit internal controls identified in the
       OMB Memorandum 07-15, “Federal Transit Program;” (1) reducing benefits for travel
       and leave, and (2) including employee removal from the TSP in the Board’s exit
       procedures for employees who are leaving the Board. The OMB issued the
       Memorandum in May 2007 after the Government Accountability Office reported
       numerous instances of fraud and abuse of Metrocheks by Federal employees.

   -   The current policy does not include an annual or periodic recertification process or
       procedures for employees withdrawing from the TSP.

TSP Procedures. Differences exist between the process followed for registration and transit
benefits payment, versus the detailed written TSP accounting procedures.

   -   Applying to the TSP starts with the Board Application for Transportation Subsidy (Board
       Application); however, the current written procedures start with the SmartBenefits
       Program Application (SmartBenefits Application).

   -   The current process to review TSP applications includes the scanning and emailing, to the
       Department of Transportation (DOT), of both the Board Application and the
       SmartBenefits Application; however, the written procedures only document scanning and
       emailing the SmartBenefits Application to DOT. DOT performs the transit subsidy
       distributions for Board employees.

   -   The current process to ensure the accurate payment of the transit benefits disbursed by
       DOT to employees includes the receipt and comparison of the monthly DOT invoice to
       the Board’s monthly TSP reconciliation. However, the procedures do not address the
       receipt and comparison of the invoice. The Board’s TSP reconciliation includes
       comparing the monthly DOT detail reports to the Board’s Public Enrollment Spreadsheet.

   -   The written procedures include a review of the pertinent IRS code to determine changes
       in the tax-free transit subsidy limits or other requirements under the Metrochek process;
       however, this step was not included for the overall program, which includes
       SmartBenefits.

        We also noted that the TSP accounting procedures maintained on Inside the Board (ItB)
   included non-sensitive personally identifiable information for approximately 40 employees.
   The information included employees’ name, SmarTrip card number, work extension, last
   four of social security number, and employee identification number. We brought this



                                                20
Appendix 1 (continued)

      observation to the attention of accounting staff, and the spreadsheet was promptly removed
      from the ItB.

Fiscal Year 2008 TSP partnership agreement with DOT. The Board executed a partnership
agreement with DOT’s TRANServe unit for disbursement of the transit subsidy.
The agreement states that the Board will ensure compliance with certain aspects of Executive
Order 13150 and other legislation. However, Board Legal staff told us that the Board is not
subject to Executive Order 13150.

TSP Web Page. The TSP web page is incomplete and the TSP application contains information
that is not applicable.

      -   The Board’s TSP web page provides information on how to claim the transit subsidy for
          metro bus and metro rail, but does not provide information on how to claim the transit
          subsidy for van pools.

      -   The current TSP application, found on the Board’s TSP web page, contains a reference to
          statute 12 U.S.C. §1819, which applies to the Federal Deposit Insurance Corporation, but
          does not apply to the Board.

    The preliminary observations presented above will be explored further during our continuing
audit and reported in an audit report to be issued in the first quarter of 2009. You will have an
opportunity to respond to the draft report before the final report is issued. Therefore, no written
comments are required at this time.

    We appreciate the support the MGT staff has provided us during our audit work. If you
have any questions about this memorandum, please contact me at extension 5003 or Cynthia
Gray at extension 5040.

cc:       Mr. Donald Spicer
          Mr. William Mitchell
          Ms. Elizabeth Coleman




                                                 21
Appendix 2 – Acting Division Director’s Comments




                                         March 29, 2011



Ms. Elizabeth Coleman
Inspector General
Office of Inspector General
Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Beth:

        Thank you for the opportunity to review and comment on the draft Report on the Audit of
the Board’s Transportation Subsidy Program dated February 2011. We are pleased that the
audit found that the Board’s transportation subsidy program (TSP) is reasonably controlled and
administered and that you did not identify any significant deficiencies. As with any program, we
agree that there are always opportunities to strengthen internal controls and, as discussed below,
we are in the process of implementing actions that will address the three recommendations’
intent. Our response to recommendation 1 remains unchanged from our letter “Response to OIG
Transportation Subsidy Audit” dated September 15, 2010; a copy of that letter is attached.

       Recommendation 1: We recommend that the Acting Director of the Management
       Division finalize and issue the draft revised Transportation Subsidy policy, which
       includes control enhancements.

       Response: We concur with this recommendation. As your report notes, the Management
       Division (MGT) revised the policy during the initial phase of the audit to include
       additional controls related to recertification and adjusting benefits due to travel and leave.
       We delayed issuing the policy until the audit was complete to ensure that the document
       captured any necessary changes based on your findings and recommendations. We also
       wanted additional time to evaluate comments received from senior Board staff when the
       draft policy was initially released for review. Now that the audit is complete, we plan to
       finalize and issue the policy.

       Recommendation 2: We recommend that the Acting Director of the Management
       Division update the Employee Separation Form and the Board’s exit process to
       ensure that employees separating from the Board are also removed from the TSP.
       Response: We concur with the recommendation’s intent. The division recently began a
       review of the separation process, and we will consider this recommendation as we
       implement an automated workflow routing of the separation form. In the interim, we
       believe that fully implementing other controls will better ensure that employees
                                                23
Appendix 2 – Acting Division Director’s Comments (continued)

     separating from the Board are removed from the TSP. Accounting staff receive a weekly
     data feed from the Board’s personnel database that includes employee status (e.g., active,
     inactive, or terminated) and current address; staff use this feed to update the TSP
     database. Accounting staff run reports to identify terminated employees who were
     participating in TSP, and then terminate these employees in the TSP database. This
     process will be added to our monthly checklist. Consistent implementation of this control
     will help ensure that individuals do not continue to receive TSP benefits after leaving the
     Board. We also plan to incorporate TSP requirements into the planned rewrite of the
     Board’s parking program, which will more fully automate the process of removing
     departing employees from the TSP database.

     Recommendation 3: We recommend that the Acting Director of the Management
     Division improve the Board’s processes and written procedures to ensure that TSP
     participants (i) are timely removed from the program when they separate from the
     Board, so they do not continue to receive benefits, (ii) provide the Accounting
     Section with up-to-date address and commuting cost information, and (iii) do not
     also have a parking permit.

     Response: We concur with this recommendation. Fully implementing the controls
     discussed above will help ensure the timely removal of departing employees from the
     program. In addition, we streamlined the program by (1) eliminating the Department of
     Transportation (DOT) as our intermediary processor and (2) establishing an agreement
     directly with the Washington Metro Area Transportation Authority (WMATA). By
     working directly with WMATA, we eliminated time lags between notifying DOT of an
     employee’s removal from the program and DOT’s acting on that notification. Regarding
     address updates, Accounting staff will perform a monthly reconciliation between the
     Board’s personnel database and the TSP database to identify address discrepancies. This
     reconciliation was added to our checklist. Implementing an annual revalidation process
     will also help ensure that information in our database remains up-to-date. Regarding
     parking permits, Accounting staff will review the parking database records prior to
     approving new subsidy applications to ensure employees do not receive both benefits.
     Law Enforcement staff will review transportation subsidy records prior to approving new
     permanent parking passes to ensure employees do not receive both benefits. In addition,
     on a monthly basis, Accounting staff will review contingency, lottery, and permanent
     parking pass records and compare them to transportation subsidy records to identify
     employees who may be receiving both benefits. The rewrite of the Board’s parking
     program will also help establish stronger controls between the transportation subsidy and
     parking programs.




                                             24
Appendix 2 – Acting Division Director’s Comments (continued)

      If you have any questions regarding our corrective actions, please let us know.

                                          Sincerely,

                                           /signed/


Attachment

cc:   Michell Clark
      Charles O’Malley
      William Mitchell
      Elaine Boutilier
      Andrew Patchan
      Cynthia Gray




                                              25
Appendix 2 – Acting Division Director’s Comments (continued)




September 15, 2010


Ms. Elizabeth Coleman
Inspector General
Office of Inspector General
Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Beth:

        Thank you for the opportunity to review and comment on the draft Report on the Audit of
the Board’s Transportation Subsidy Program dated August 30, 2010. We are pleased that the
audit found that the Board’s transportation subsidy program (TSP) is reasonably controlled and
administered and that you did not identify any significant deficiencies. As with any program, we
agree that there are always opportunities to strengthen internal controls and, as discussed below,
we are in the process of implementing actions that will address the three recommendations’
intent.

       Recommendation 1: We recommend that the Director of the Management Division
       finalize and issue the draft revised Transportation Subsidy policy, which includes
       control enhancements.

       Response: We concur with this recommendation. As your report notes, the Management
       Division (MGT) revised the policy during the initial phase of the audit to include
       additional controls related to recertification and adjusting benefits due to travel and leave.
       We delayed issuing the policy until the audit was complete to ensure that the document
       captured any necessary changes based on your findings and recommendations. We also
       wanted additional time to evaluate comments received from senior Board staff when the
       draft policy was initially released for review. Now that the audit is complete, we plan to
       finalize and issue the policy.

       Recommendation 2: We recommend that the Director of the Management Division
       update the Employee Separation Form and the Board’s exit process to ensure that
       employees separating from the Board are also removed from the TSP.

       Response: We concur with the recommendation’s intent. The division recently began a
       review of the separation process, and we will consider this recommendation as we update
       the separation form. We believe, however, that fully implementing other controls will
       better ensure that employees separating from the Board are removed from the TSP.
                                                26
Appendix 2 – Acting Division Director’s Comments (continued)

      Accounting staff receive a weekly data feed from the Board’s personnel database that
      includes employee status (e.g., active, inactive, or terminated) and current address; staff
      use this feed to update the TSP database. Accounting staff run reports to identify
      terminated employees who were participating in TSP, and then terminate these
      employees in the TSP database. This process will be added to our monthly checklist.
      Consistent implementation of this control will help ensure that individuals do not
      continue to receive TSP benefits after leaving the Board. We also plan to incorporate
      TSP requirements into the planned rewrite of the Board’s parking program, which will
      more fully automate the process of removing departing employees from the TSP
      database.

      Recommendation 3: We recommend that the Director of the Management Division
      improve the Board’s processes and written procedures to ensure that TSP
      participants (i) are timely removed from the program when they separate from the
      Board, so they do not continue to receive benefits and (ii) provide the Accounting
      Section with up-to-date address and commuting cost information.

      Response: We concur with this recommendation. Fully implementing the controls
      discussed above will help ensure the timely removal of departing employees from the
      program. In addition, we are streamlining the program by (1) eliminating the Department
      of Transportation (DOT) as our intermediary processor and (2) establishing an agreement
      directly with the Washington Metro Area Transportation Authority (WMATA). By
      working directly with WMATA, we will eliminate time lags between notifying DOT of
      an employee’s removal from the program and DOT’s acting on that notification.
      Regarding address updates, Accounting staff will perform a monthly reconciliation
      between the Board’s personnel database and the TSP database to identify address
      discrepancies. This reconciliation will also be added to our checklist. Implementing an
      annual revalidation process will also help ensure that information in our database remains
      up-to-date.

      If you have any questions regarding our corrective actions, please let us know.

                                           Sincerely,

                                            /signed/

                                         H. Fay Peters
                                Director, Management Division


cc:   Donald Spicer
      Michell Clark
      William Mitchell
      Andrew Patchan
      Cynthia Gray



                                               27
Appendix 3 – Principal Contributors to this Report

Keisha Turner, Project Leader and Auditor
Cynthia Gray, Project Manager
Andrew Patchan, Jr., Associate Inspector General for Audits and Attestations




                                              29
